<html>
<title> - THE U.S. ROLE IN HELPING NIGERIA CONFRONT BOKO HARAM AND OTHER THREATS IN NORTHERN NIGERIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
               THE U.S. ROLE IN HELPING NIGERIA CONFRONT
                    BOKO HARAM AND OTHER THREATS IN
                            NORTHERN NIGERIA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 11, 2016

                               __________

                           Serial No. 114-210

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       
             

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-100PDF                WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
  
  
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Frank R. Wolf, distinguished senior fellow, 21st 
  Century Wilberforce Initiative.................................     9
Mr. Emmanuel Ogebe, special counsel, Justice for Jos Project.....    18
``Sa'a'', Chibok schoolgirl, Education Must Continue Initiative..    55
Christopher Fomunyoh, Ph.D., senior associate and regional 
  director for Central and West Africa, National Democratic 
  Institute......................................................    60

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Frank R. Wolf: Prepared statement..................    14
Mr. Emmanuel Ogebe: Prepared statement...........................    22
``Sa'a'': Prepared statement.....................................    57
Christopher Fomunyoh, Ph.D.: Prepared statement..................    62

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement from Refugees International...........    82


                    THE U.S. ROLE IN HELPING NIGERIA



                     CONFRONT BOKO HARAM AND OTHER



                      THREATS IN NORTHERN NIGERIA

                              ----------                              


                        WEDNESDAY, MAY 11, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:31 p.m., in 
room 2255, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and 
welcome. A number of members are on their way, so I will just 
start with my opening comments and then yield to Ms. Bass and 
other members as they come in.
    Let me just say at the outset--and I will be introducing, 
obviously, all of our distinguished witnesses after opening 
statements--but I just want to welcome back to the U.S. House 
of Representatives a 17-term, 34-year Member of the House, 
Frank Wolf, who is truly the William Wilberforce of the U.S. 
Congress. He continues that work now, as we all know, as the 
distinguished senior fellow for the 21st Century Wilberforce 
Initiative and the Jerry and Susie Wilson chair in religious 
freedom at Baylor University.
    Frank Wolf, as I think many of you know, is the author of 
the landmark law on religious freedom. It is called the 
International Religious Freedom Act of 1998.
    That legislation was strongly opposed by the Clinton 
administration. I remember chairing hearings on it. He wrote 
the language and did a magnificent job shepherding it both 
through the House and the Senate, but it was opposed by the 
administration.
    But at the end of the day, with a nose up, the President, 
in this case President Clinton, signed it, and it has made all 
the difference in the world. And as I think many of you know, 
it not only created the International Religious Freedom office 
and, obviously, established a number of mutually reinforcing 
sanctions, 18 of them that now the President has in his toolbox 
to promote religious freedom, but it also established an 
independent commission, the purpose of which is to really 
advise Congress, and, frankly, the President, to be a clear, 
nonambiguous voice about religious freedom.
    And all of that, every bit of that is attributable to Frank 
Wolf. And I want to thank him again for that extraordinary 
effort.
    I saw firsthand his devotion to human rights on a myriad of 
ways, including trips with Frank to prison camps all over the 
world, including in the Soviet Union. The infamous Perm Camp 
35, where Natan Sharansky spent so many years of his life and 
other political prisoners, a godforsaken place in Perm Oblast, 
a place that no Americans had been to simply because it was off 
limits to everyone. Over the course of 2 years he negotiated 
his way, and I joined him, to Perm Camp, where we met with 
prisoners, videotaped them. And one by one they actually got 
out of that prison camp.
    I saw it again when we were in a Gulag in China, Beijing 
Prison Number 1. There were at least 40 Tiananmen Square 
activists there who were in servitude. They were truly being 
exploited. And that was closed, that Beijing Prison Number 1, 
because Frank had the good sense to ask the warden--his name 
was Zhou--for a box of what they were producing there, socks 
and jelly shoes, which were all the rage among young girls at 
the time in this country and in Europe for export. He brought 
that over to the commissioner to the State Department, they put 
an import ban on it, and Beijing Prison Number 1 closed its 
doors because we have a law that precludes importation of 
slave-made goods. That was Frank Wolf.
    We saw it again in Vukovar, a city that was under siege by 
Slobodan Milosevic. After that we met with Slobodan Milosevic--
and he lied through his teeth, war criminal that he is--and 
made strong and persistent efforts to mitigate the effects of 
that war, because right after Croatia, which is where Vukovar 
is, they went into Bosnia and did more killing. But Frank was 
right at the forefront of that in Romania and so many other 
countries.
    And Africa, the first Member of Congress to push so 
aggressively, and Sam Brownback was part of that effort as 
well, to say that in Sudan there is a genocide going on and we 
not only need to raise our voices, we need to put into place 
policies that will hopefully end that genocide.
    So Frank Wolf is truly a leader. He is a man of deep 
Christian faith. He walks the walk in a way worthy of his 
calling. He also chaired, as I think many of you may know, 
several Appropriations subcommittees, including Commerce, 
Justice, and Science, his last perch, leadership post, and 
wrote a number of laws, including nine major appropriations 
bills.
    So a man of great legislative accomplishment. But it is his 
heart for the weak and disenfranchised and his advocacy for 
religious freedom that has and continues to make all the 
difference in the world.
    So, Mr. Wolf, welcome.
    Nigeria is Africa's most populous country, as we all know, 
with more than 180 million people, roughly divided between 
Muslims and Christians, and including numerous ethnic groups.
    Nigeria's Muslim population is among the largest in the 
world and has likely overtaken Egypt as the largest on the 
continent. Lagos, its commercial center, is among the world's 
largest cities. Nigeria also is Africa's largest economy and 
largest oil producer. Nigeria has long been a top troop 
contributor to U.N. peacekeeping operations and is a major 
political force on the continent.
    I would note, parenthetically, one time in Darfur I myself 
hooked up with a group of peacekeepers and they were from 
Nigeria. I was in Sarajevo during the Balkan War and there was 
the same man, Major Ajumbo. So they really have distinguished 
themselves as providers of peacekeepers who have done great 
work around the world.
    Unfortunately, that stability that they have striven for 
has been under increasing threat in recent years. Disgruntled 
elements of mostly Muslim Kanuri ethnic group in 2003 created 
Boko Haram, a violent extremist group based in the northeast.
    Boko Haram is considered the deadliest terrorist group in 
the world, responsible for 6,664 deaths last year alone. 
Neglect of the region has limited potential support of the 
Kanuris and other ethnic groups for government efforts to 
combat the terror threats in northern Nigeria.
    Elsewhere in northern Nigeria, Fulani herdsmen have clashed 
with a multitude of ethnic groups of farmers, multi-ethnic 
farmers, leaving 3,000 people dead since 2010.
    Meanwhile, the growing number of confrontational Shiites in 
northern Nigeria recently resulted in a December 2015 massacre 
in Zaria in Kaduna State in which an as yet undetermined number 
of civilians and military were killed. The number of dead is 
believed to be in the hundreds, but there are several ongoing 
investigations of this incident.
    This subcommittee has long held hearings, many hearings on 
various aspects of Nigeria's situation, including specifically 
attacks by Boko Haram. Staff Director Greg Simpkins and I have 
visited Abuja and Jos several times. Jos is a city where 
numerous churches were fire bombed by Boko Haram and I know Mr. 
Wolf has just been there with his delegation.
    Today's hearing will examine the ongoing fight against the 
terrorist group Boko Haram and other conflicts in northern 
Nigeria in an effort to determine the best way for the U.S. 
Government to help address these challenges in the context of 
our overall Nigeria policy.
    The Nigerian Government has struggled to respond to the 
continuing threat posed by Boko Haram. U.S. officials have 
expressed continuing concern about Boko Haram's impact in 
Nigeria and neighboring countries and its ties with other 
extremist groups, notably the self-proclaimed Islamic State in 
Syria and Iraq, to which Boko Haram pledged allegiance in 2015.
    The recruitment of Nigerians by other transnational 
terrorist groups also has been a concern. The State Department 
designated Boko Haram and a splinter faction, Ansaru, as 
Foreign Terrorist Organizations, or FTOs, in November 2013 
following sustained efforts by this subcommittee. I would note, 
parenthetically, the day we were going to mark up a resolution 
that I had introduced to so designate, they made that 
proclamation. It was 2 to 3 years late in coming.
    The U.S. Government has made every effort to support 
Nigeria's battle against Boko Haram, but our counterterrorism 
training was suspended by the previous Nigerian Government. It 
has been resumed, I am happy to say, and it is much needed. 
Boko Haram commenced a territorial offensive in mid-2014 that 
Nigerian forces struggled to reverse until early 2015, when 
regional military forces, primarily from neighboring Chad, 
launched an offensive against the group. The Nigerian Army has 
since reclaimed most of the territory, although many areas 
remain insecure.
    One of the witnesses today, Emmanuel Ogebe, recently told 
of his meeting with a Christian woman named Saratu in a refugee 
camp in northern Nigeria: ``She had just returned from 
searching for her four children, ages 14, 11, 8, and 7, who had 
been abducted by Boko Haram from an attack on her town in 2014. 
She traveled to the front lines,'' he went on to say, ``asking 
soldiers if they saw her kids. She went to IDP camps. This is 
the life of many today in northern Nigeria.''
    We recently commemorated the tragic 2-year anniversary of 
the kidnapping of nearly 300 schoolgirls from the town of 
Chibok in northeastern Nigeria. We have with us today Sa'a, one 
of the girls who escaped this mass kidnapping. But many of her 
classmates were not so fortunate. Many of these schoolgirls are 
believed to have been forced to convert to Islam and marry to 
Boko Haram fighters or prostituted by this egregious group. We 
now receive reports that some of them may be used as suicide 
bombers.
    As if the menace posed by Boko Haram was not enough of a 
challenge for the government of President Buhari there is the 
growing crisis in Nigeria's Middle Belt, largely caused by 
clashes between Fulani herdsmen and a multi-ethic group of 
farmers. Some of the violence is a result of conflicts over 
cattle rustling on encroachment on private land. Nevertheless, 
according to the current Global Terrorism Index, Fulani 
militants operating in Nigeria and Central African Republic are 
considered the fourth-deadliest militant group in Africa behind 
Boko Haram, al-Qaeda in the Islamic Maghreb, and al-Shabaab.
    More recently, a new threat has been added to the volatile 
northern region. Although the majority of Nigerian Muslims are 
Sunni, there are between 1 million and 3 million Shia 
consecrated in Kano, Nassarawa, and Kaduna States. A member of 
the recent staff delegations that visited Kaduna found a high 
level of concern by Sunni Muslim leaders about what they 
described as an assertive Shia presence reportedly supported by 
Iran.
    Since the 1980s, the Shiite Islamic Movement in Nigeria, or 
IMN, has existed as a state within a state. Despite being a 
professed nonviolent movement, the IMN has made itself a public 
nuisance, blocking roads on the days they have processions, 
thus preventing citizens from accessing medical care in a 
timely fashion. It is for these social and religious reasons 
why the group is not sympathetic, even in light of what is 
believed to have occurred last December.
    Although the details of what happened in the town of Zaria 
appear to be murky, the U.S. Embassy beliefs that Chief of 
Staff Lieutenant General Tukur Buratai was attending a 
graduation ceremony in Zaria during the anticipated IMN 
religious procession. A Nigerian security force deployed to 
protect Buratai's route had an altercation with IMN members. 
Claiming that there was an assassination attempt on Burati, the 
Nigerian military opened fire. Again, the exact number of 
people killed is not known, but this is a very serious 
potential escalation in that region.
    I would like to now yield to my very distinguished 
colleague, Ms. Bass, for any opening comments she might have.
    Ms. Bass. Mr. Chairman, thank you for conducting this 
critical and once again timely hearing.
    I welcome the witnesses and look forward to your 
perspectives on the deterioration of peace and security, 
particularly in northern Nigeria.
    We know that Nigeria as a whole is a vibrant, dynamic 
country aspiring toward democracy, as evidenced by the 2015 
elections. And as one of your expert witnesses has cited in the 
past, the country's vibrant private sector, civil society, 
labor unions, and professional associations are essential 
ingredients for a democratic society.
    Also, Nigeria, with some 250 different ethnicities, is the 
most populous country in sub-Saharan Africa with a population 
in excess of 180 million people. In the United States, 
Nigerian-Americans compose in part a well-educated and 
entrepreneurial diaspora, and Nigerians are known to be some of 
the most educated immigrants that come to the United States.
    Nigeria has long been an important economic ally of the 
U.S., and Abuja is also a critically important recipient of and 
leading regional actor in the U.S. and regional 
counterterrorism initiatives.
    However, over the past few years international commentary 
about this regional economic powerhouse has had to address 
increasingly the murderous attacks by Boko Haram on the 
impoverished communities of northeast Nigeria, the kidnapping 
of Chibok girls, and many others. I imagine that our colleague 
Frederica Wilson will probably be here with us today, and she 
has led the effort in the House to fight for the return of the 
Chibok girls.
    I have been dismayed when I hear of children being used as 
suicide bombers. And I have to say ``suicide'' implies that 
they consented. And to me, I think ``human bombs'' is a more 
accurate description of this atrocity.
    All of these crises are exacerbating ethno-religious 
differences in the north and pose strong challenges to the 
government of President Buhari. His administration must not 
only contend with the terrorist activity of Boko Haram, but 
must address thoroughly the humanitarian plight of the growing 
population of internally displaced individuals in Nigeria. To 
sidestep their plight could result in further alienating these 
communities and prompt them to support terrorist activities.
    Again, all of these complex issues must be dealt with 
impartially, succinctly, and swiftly by the Government of 
Nigeria, mindful always of the delicate ethnic, socioeconomic, 
and sectarian divide in the country.
    Of particular interest to me, and perhaps the witnesses can 
address, why these issues, notably the longstanding antagonism 
between the pastoralists and farmers, are coming to a head so 
violently and at this particular time and what role growing 
sectarian differences play in the situation.
    Again, Mr. Chairman, I look forward to hearing from all of 
our witnesses today regarding the recommended strategic next 
steps to be taken by the United States and the Buhari 
Government. Thank you.
    Mr. Smith. Thank you, Ms. Bass.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And I will be brief.
    But I want to give a little bit of hope in that there are 
hearings that go on time and time and time again, and some 
would suggest that the hearings go on with very little fruit. 
But I also would like to note that a number of hearings at the 
direction of Chairman Smith have not only produced fruit, but 
produced lasting fruit.
    And so it is your leadership, Chairman Smith, and obviously 
your leadership as well, Ms. Bass, that I applaud.
    Mr. Wolf, I want to say it is so good to see you again. And 
there is no one who has fought more diligently for the rights 
of those who perhaps can't speak for themselves throughout his 
career as Frank Wolf. And so it is this body who has lost out 
at your new endeavor, but it is certainly the world's gain, 
because you continue to fight with passion for those that are 
suffering without regard to personal well-being. And so I just 
want to say thank you for being here.
    But perhaps more telling than that will be the witness that 
has, unfortunately, got to experience a lot of this tragedy 
that we will be talking about here today. I think there will be 
no more compelling testimony than to actually hear from someone 
who has seen it up close and personal. And for America to act, 
they must first understand and feel the horror and the passion 
that so many in Nigeria and throughout northern Africa feel 
when there is persecution that goes on.
    So you have my commitment that not only will this be a 
hearing, but it will be something that we will continue to 
follow up with on a bipartisan manner to try to make sure that 
results are significant and lasting, and ultimately that fear 
does not reign in the hearts of little girls and others in 
Nigeria.
    And so I want to thank all of the witnesses for being here 
and express my apology, we are actually monitoring this, I have 
another hearing to go to in about 10 minutes. But we will be 
monitoring and following up.
    And thank you for your leadership, both of you.
    Mr. Smith. Mr. Meadows, thank you for your leadership, and 
hopefully you can get back after that other hearing.
    I would like to recognize Mr. Donovan, the gentleman from 
New York.
    Mr. Donovan. Thank you, Mr. Chairman. I echo my colleague 
Mr. Meadows' remarks. And I am going to yield the remainder of 
my time so we give the witnesses more time to speak and 
testify. Thank you.
    Mr. Smith. I would like to yield to the chairman of the 
Congressional International Religious Freedom Caucus, 
Congressman Trent Franks of Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here today. It is an honor 
for me to be here among you. And I also will point out one 
Frank Wolf in the audience. I think there should be a 70-foot 
bronze statue of him out in front of Capitol, because he has 
been such a warrior, as Mr. Meadows spoke so succinctly, for 
those who don't have a voice, for those who need to be defended 
but there is no one there to defend them. There is nothing more 
noble than that.
    Mr. Chairman, I guess I'd just ask for diplomatic immunity, 
because Boko Haram has terrorized innocent Nigerians for over a 
decade and clear links were made between the group and other 
insidious terrorist organizations many years ago. And I was 
very disappointed in the administration's response to Boko 
Haram. Our office was engaged on this issue for a number of 
years, and when we approached Hillary Clinton's State 
Department the response was excruciatingly slow. They just 
simply didn't consider Boko Haram at the time a significant 
terrorist threat and played down our concerns.
    In response to a letter from Members of Congress in 2012 
the State Department said, ``The religious tension, while real, 
should not be mistaken as the primary source of violence in 
Nigeria.'' While there are other certain factors contributing 
to the abhorrent violence against innocent men, women and 
children in Nigeria, Mr. Chairman, religious motivation should 
not be dismissed so callously.
    Boko Haram has since publicly supported the Islamic State, 
which calls for the extermination of Christians and Jews and 
others who do not conform to their radical ideology. And the 
State Department also noted support provided to Nigerian's law 
enforcement entities to enhance counterterrorism efforts, but 
what do we have to show for those efforts? There has been no 
real follow-up in any way that I know of.
    According to the 2015 Global Terrorism Index, two of the 
top deadliest organizations in the world operate in Nigeria. 
Boko Haram ranked first as the most deadly terrorist 
organization in 2014. The Fulani militants, who I am sure we 
will hear more about today, ranked fourth.
    To this end, I guess I just remain, Mr. Chairman, very 
disappointed that the administration has failed to respond 
appropriately to this threat posed by Boko Haram and other 
terrorist organizations. Our outreach and letter of concern 
happened over a year before the Chibok girls were kidnapped. If 
the response had been timely, only God knows whether the 
tragedy that happened there could have been prevented. And I 
think it is just another disgraceful chapter in the 
administration's shameful response to the spread of terrorism 
throughout the world.
    So it is my sincere hope that this country, which has long 
served as an impetus for freedom and justice around the world, 
will renew its moral conviction, and even its political will, 
to combat Boko Haram and other organizations who threaten the 
peace and security of innocent Nigerians or innocent people 
anywhere.
    To our panelists, I again want to express my gratitude to 
each of you for your efforts. I look forward to hearing what 
you have to say, but I am in the same situation Mr. Meadows is. 
That is kind of reality around here. I am not going to be able 
to stay for the hearing.
    But I thank all of you for being here. I suppose the 
hardest part that you face is knowing that there are some 
innocent people out there that help will never come for in 
time. That is a heartbreaker. That moves my soul very deeply. 
That is the hardest part.
    I don't know how we really deal with that emotionally or 
otherwise. It should break our hearts, but it should not 
paralyze us and prevent us from reaching out and helping out 
all that that we can. And the fact that you are doing that is, 
I think, a profound honor in your own right. So God bless every 
one of you and thank you.
    And thank you, Mr. Chairman, for the time.
    Mr. Smith. Thank you very much, Mr. Franks.
    I would like to now welcome our distinguished witnesses to 
the panel table, beginning first with Congressman Frank Wolf. 
As I said a few moments ago and I will not repeat all of it, 
but he is a lawmaker with very few equals, in my opinion. 
Elected the same year as Ronald Reagan in 1980, he served 34 
years in the U.S. House of Representatives. He is now the 
distinguished senior fellow for the 21st Century Wilberforce 
Initiative and the Jerry and Susie Wilson chair in religious 
freedom at Baylor University.
    As I mentioned earlier, he is the author of numerous laws, 
including and especially the International Religious Freedom 
Act of 1998. He has been in refugee camps all over the world, 
especially in Africa, worked on human rights issues with 
persecuted believers in China, Tibet, Romania, Nagorno-
Karabakh, Chechnya, Bosnia. How many people have gone to 
Chechnya? A show of hands. Frank Wolf has really been in some 
of the toughest places in the world, Bosnia, Kosovo, East 
Timor, and the Middle East of course.
    We will then hear from Mr. Emmanuel Ogebe, who is an 
international human rights lawyer specializing in Africa, and 
he currently serves as special counsel of the Justice for Jos 
Project. He earned the singular distinction of being the 
youngest law graduate in his home country of Nigeria.
    Exiled to the United States after becoming one of Nigeria's 
political detainees during the brutal years of military rule, 
Mr. Ogebe has played a role, a key role, in shaping policy in 
Nigeria's quest for a stable democracy.
    He has testified before this subcommittee previously, has 
provided great counsel and insight to me, to my staff, and 
others about what is truly going on in Nigeria, particularly as 
it relates to Boko Haram. And he has also been a guest speaker 
at university campuses across the U.S. and around the world. He 
has spoken at the Geneva Summit, the United Nations, World 
Bank, Canadian Parliament, and, again, before other 
parliaments.
    Then we will hear from Sa'a, who was one of the 276 
schoolgirls who was kidnapped from the government secondary 
school in Chibok by the terrorist group Boko Haram 2 years ago 
but escaped by jumping off a truck. Sa'a has twice escaped from 
Boko Haram attacks on her schools. When Sa'a survived the first 
attack at her previous government secondary school in Bama, her 
parents decided to move her and enroll her in the Chibok 
secondary school because they thought it would be a safer place 
to continue her education.
    She currently is attending college in the United States 
under a project by the Education Must Continue Initiative, a 
charity run by victims of the insurgency for victims of the 
insurgency. Sa'a is a pseudonym that she uses for protection.
    Thank you for being here and your willingness to testify.
    We will then hear from Dr. Chris Fomunyoh, who is currently 
serving as the senior associate and regional director for 
central and west Africa at the National Democratic Institute. 
Dr. Fomunyoh has organized and advised international election 
observation missions and designed and supervised country-
specific democracy support programs with civic organizations, 
political parties, and legislative bodies throughout central 
and west Africa.
    He recently designed and helped launch the African 
Statesmen Initiative, a program aimed at facilitating political 
transitions in Africa by encouraging former democratic heads of 
state. He is also an adjunct faculty at the Africa Center for 
Strategic Studies and a former adjunct professor of African 
politics and government at Georgetown University.
    Congressman Wolf.

STATEMENT OF THE HONORABLE FRANK R. WOLF, DISTINGUISHED SENIOR 
          FELLOW, 21ST CENTURY WILBERFORCE INITIATIVE

    Mr. Wolf. Thank you, Mr. Smith, for your comments. I 
appreciate it.
    I want to thank Chairman Smith and the members of the 
committee for having this hearing today, and particularly thank 
Mr. Smith for his leadership over the many years. I also want 
to begin by saying that these are my personal observations. 
However, a detailed trip report will be released on June 9 at 
an event here by the 21st Century Wilberforce Group.
    I, along Randel Everett, president of 21st Century 
Wilberforce Initiative, Elijah Brown, executive vice president, 
and Lou Ann Sabatier, director of communications, traveled to 
Nigeria in late February this year. We arranged our own 
itinerary. We did not travel with the U.S. State Department. We 
traveled to three states with representatives from the Stefanos 
Foundation, a Nigerian nonprofit that has worked for 14 years 
in relief, restoration, and rebuilding lives and communities 
ravaged, ravaged by violence and persecution in northern 
Nigeria.
    We met with representatives from nine states in the north 
who traveled to spend several hours with us, sharing stories 
and documentations of persecution. And much of the time was 
spent in Jos and the surrounding area, often referred to as the 
Middle Belt.
    We listened, we listened to hundreds of individuals in 
small villages and remote areas miles off the main roads. We 
talked to tribal leaders, pastors, mothers and fathers, as well 
as government officials and our own Embassy personnel. We heard 
about the pain, suffering, and agony that the people in 
northern and central Nigeria have faced and continue to face. 
Many of the people we spoke to believe the world is not 
concerned with their problems, and I must say I tend to agree.
    As a result, it is clear that the crisis plaguing Nigeria 
is multifaceted, but one that must be addressed not only by the 
Nigerian Government, but our Government and the international 
community.
    Corruption. One significant issue is corruption. It is in 
the government at the Federal level, state level. It is in 
business. It is in the military. One cannot enter the country 
without corruption raising its insidious head.
    Transparency International ranks Nigeria 136 out of 168 
countries. That is the bottom 20 percent. Given their 
population size and economic output, this means that a vast 
number of people have to suffer the costs and the injustice of 
corruption.
    Poverty. Despite the fact that according to the latest 
available data from the World Bank Nigeria is the richest 
country in Africa, yet there is immense poverty. Unemployment 
is a huge issue. According to the National Bureau of 
Statistics, it has been increasing since 2005 and now stands at 
or above 20 percent.
    The falling oil prices are hitting the economy broadly. The 
percentage of people living in poverty, at less than $1.90 a 
day, is 53.6 percent. That is 2009, it is probably much higher.
    Terrorism. According to the 2015 Global Terrorism Index, 
more than half, 51 percent of all global deaths attributed to a 
terrorist group were committed by either Boko Haram or the 
Islamic State. Nigeria has experienced the largest increase in 
terrorist deaths, more than 300 percent from 2014 to 2015, with 
fatalities at least 7,512 in 2015.
    Nine of the top 20 most fatal terrorist attacks occurred in 
Nigeria in 2014. The deadliest terrorist organization in the 
world, according to the number killed, are Boko Haram, the 
Islamic State, al-Shabaab, and the Fulani herdsmen.
    Boko Haram. Terrorism and violence continue from the well-
known Boko Haram terrorist group, whose name means ``Western 
education is forbidden.'' According to the Global Terrorism 
Index 2015 for the Institute of Economics and Peace at the 
University Maryland, Boko Haram killed 6,664 Nigerians in 2014, 
more than ISIS elsewhere in the world. That makes them the 
single most deadly terrorist organization in the world. You 
would never know it listening or reading the media, but it is a 
fact. In a recent report by Refugees International, they 
indicate that reportedly 20,000 have been killed in total as a 
result of the insurgency.
    In 2015, Boko Haram pledged allegiance to ISIS. This 
affiliation means that Boko Haram is now part of that 
organization's declaration of war against both the Nigerian 
Government and our own Government, the American Government.
    Boko Haram attacks villages, conducts drive-by shootings, 
uses young girls as suicide bombers, they target politicians 
and clerics for assassination, focusing on the symbols of 
Western advancement such as schools, hospitals, churches, and 
mosques.
    While no one has an exact number, thousands of young girls 
have been abducted by Boko Haram. According to the Washington 
Post, young girls and women who have been raped but released by 
Boko Haram face extreme stigmatizing from their communities 
where many label them ``Boko Haram wives'' and fear that they 
have been radicalized. They are the victims twice. They are 
victims when they are captured and they are victims many times 
when they are released.
    Just last month we commemorated the 2-year anniversary of 
the kidnapping of the Chibok girls. And despite the loud 
protests in the West and the #BringBackOurGirls campaign 
championed by First Lady Michelle Obama and Prime Minister 
Cameron and many others, it is extremely doubtful that any of 
the girls have been released.
    One counselor who we met with up in the Jos area spoke, 
told us that the girls who have been captured may never return 
without a major concerted effort by the Nigerian Government and 
the West. And when they do return, and I am hopeful and 
optimistic that they will return, they will have been victims 
of sexual violence, and they are oftentimes pregnant and will 
have been forced to convert to Islam. That is what the 
counselor told us.
    Fulani herdsmen. Unfortunately, Boko Haram is not the only 
violent organization that plagues Nigeria. The Fulani, who I 
had heard very, very little about before visiting Nigeria, the 
Fulani herdsmen are a large tribal grouping that stretches over 
many northwestern African countries and follow migratory 
grazing patterns. Some of these herdsmen adhere to more 
radicalized versions of Islam, and this is having a significant 
and devastating impact on the predominantly Christian farming 
communities in the Middle Belt.
    The Global Terrorism Index has identified them as the 
fourth most deadly terrorist organization in the world. That 
means Nigeria has the first and the fourth most dangerous 
terrorist groups in their country.
    While we were in Nigeria, Agatu village was attacked, and I 
know Emmanuel will talk more about that. Two hundred to 300 
were killed over a sustained 2- to 3-day attack. And the 
attackers did not move on, but rather occupied homes within the 
village. And there were reports on the ground that indicated 
that sophisticated resupply systems were used, including, we 
were told, two helicopters and boats.
    Attacks like this go beyond the settler-herder conflict. 
There has been an obvious increase in violence in 2013 and the 
Fulani militants killed 63; in 2014, 1,249.
    The IDPs, the internally displaced people. Due to the 
violence from groups like Boko Haram and the Fulani militants, 
there are thousands of internally displaced people scattered 
around the country. According to recent estimates, there are 
2.1 million people who are internally displaced and more have 
fled to neighboring countries. Unofficially, however, we were 
told there are about 5 million who have been displaced. We have 
been told that 90 percent of the IDPs are dispersed among 
villages and are outside of official camps and therefore they 
are unable to access even the limited government services.
    In the Refugee International report, which I know the 
committee probably has, it is a very powerful report, a senior 
U.N. official was quoted as stating, ``Nigeria is our biggest 
failure.'' This aligns with the stories we heard over and over 
on the ground.
    Some recommendations based on the challenges. One, 
strategic geopolitical and national security interests are at 
stake. Many organizations, including local groups like the 
Stefanos Foundation and an international one such as 
MercyCorps, are doing the vital work. However, much, much, 
much, much more needs to be done. They are barely touching, 
scratching the surface of what has to be done.
    Congress and the U.N. should do everything it can to aid 
IDP camps and support efforts at distribution in novel ways for 
those IDPs who are not, for various reasons, in camps. The 
types of aid should not only include food and medicine, but 
psychosocial services for the rehabilitation of victims as well 
as for former members of Boko Haram who are attempting to 
reintegrate into the communities.
    We visited prison two different times. They said they would 
let us talk to Boko Haram. Each time we got there we were 
ready, and then they pulled them back.
    Groups like International Justice Mission or Shared Hope, 
which have done an excellent job with regard to counseling and 
rehabilitation of women and girls, could provide valuable 
training to groups and individuals. I would hope the State 
Department would send IJM and Shared Hope and groups like that 
over to work with the Nigerian Government to help them set it 
up. We can't just talk about this. The people who are released, 
they need counseling, and I think IJM and Shared Hope could do 
that.
    Congress should also investigate the connection between 
ISIS and Boko Haram and integrate strategies as appropriate to 
deal with them. It is my understanding that the NSC has 
internally designated Boko Haram as part of ISIS. If this is 
indeed the case, there should be increased funding available 
for security purposes.
    While I generally support the Leahy amendment, and Senator 
Leahy has been a great person on these issues and I do support 
it, the Nigerian military has serious problems with corruption 
and human rights abuses. I believe that it would be beneficial 
to find every way possible in which the U.S. could provide 
vital human rights training to the Nigerian military and 
security forces.
    There were constant stories we heard that the military came 
in, the police came in, the people had uniforms. Were they 
really the police? Were they really the military? Did they 
steal the uniforms? But over and over and over and over.
    So human rights training should be included in basic 
training for new recruits and promotional courses for existing 
soldiers. This is critical.
    Special envoy. I believe that a special envoy for Nigeria 
and the Lake Chad district, not just Nigeria, but for the Lake 
Chad region, could be a strategic benefit because many of the 
problems involve Nigeria and the surrounding countries. Such a 
position could be modeled after Senator Danforth, formerly the 
Special Envoy to Sudan, or Knox Thames, who is the Special 
Advisor for Religion Minorities in the Near East and South/
Central Asia.
    I understand there is a coordinator on Boko Haram within 
the State Department, and he is a good person. Perhaps this 
position could be elevated to that of a special envoy and 
expanded to include all terrorism, including the Fulani 
militants, human rights, refugee assistance, counseling, a one-
stop, one-place coordinator.
    There are a lot of good people working on these issues 
within our own Government. However, I believe a special envoy 
would provide those seeking assistance a one-stop. We talk to 
Nigerians, they say they come to America, they don't know where 
to go. Do they go to the State Department? Do they go to USAID? 
Do they go to DOD? Who do they talk to? So I think it would be 
a one-stop for those seeking assistance while also coordinating 
with the Embassies in Nigeria, in Chad, in Cameroon, and Niger 
on various issues.
    The issue of Boko Haram and the Fulani herdsmen are not 
localized to Nigeria but transcend the bordering countries. A 
special envoy could help coordinate necessary assistance 
throughout the region. There was an April 23 New York Times 
article where it said Boko Haram moves easily across the 
border. So it is not just in one location.
    Military assistance, and I know we are doing much. The U.S. 
Military and other Western nations should use all possible 
assistance to help the Nigerian Government. We also should have 
churches in the West to be engaged with Nigerian churches, 
Catholic to Catholic, Baptist to Baptist, Anglican to Anglican, 
in order to help the local congregations.
    Also, the Multinational Joint Task Force consisting of 
security forces from Nigeria, Chad, Cameroon, Niger, and Benin, 
they also have to have human rights training.
    Lastly, the challenges that face Nigeria are great. 
However, I believe that the United States and other Western 
nations have a vested interest in confronting one of the worst 
crises of the current day. One of the members on our delegation 
said Nigeria--and it sort of caught--he said Nigeria has been 
fractured and forgotten.
    And it is my hope--and, Mr. Smith, you have done a great, 
and Ms. Bass, on these issues before--that this hearing will 
light the spark that is needed to elevate this crisis to the 
place that it deserves.
    And, lastly, I heard the musician, an Irish singer, Bono, 
the other day on television. There are 180 million people in 
Nigeria. He said if Nigeria unravels, or if part of it 
unravels, he said it is an existential threat to Europe. You 
saw the number in Nigeria? What will happen will be. So I think 
everything that can be done should be done.
    Again, thank you, Mr. Smith and Ms. Bass, for this hearing 
and to really kind of shine the light on it. I think it can 
make a big difference.
    [The prepared statement of Mr. Wolf follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
                              ----------                              

    Mr. Smith. Mr. Wolf, thank you so very much for your 
testimony.
    Mr. Ogebe.

 STATEMENT OF MR. EMMANUEL OGEBE, SPECIAL COUNSEL, JUSTICE FOR 
                          JOS PROJECT

    Mr. Ogebe. I would like to thank you very much, Chairman 
Smith, for your consistency and leadership on this issue, for 
traveling to Nigeria to further assess the situation.
    I also want to thank you, Ranking Member Bass, for the 
breakfast you held recently on this issue, keeping the issue 
alive.
    I also want to especially thank the honorable Congressman, 
retired, who has crossed over to our side of the aisle. I have 
to say that it is a great honor to have an old champion on my 
right and also a young champion on my left, Ms. Sa'a, who will 
be speaking here shortly.
    Let me start by saying that last year when I testified 
before this subcommittee last we were discussing what then was 
the big threat in Nigeria. Fortunately, we dodged a missile and 
peaceful elections and a successful transition occurred. That 
was the good news.
    Today there is a continuing sense of insecurity from three 
factors and actors, and I will start with an update on Boko 
Haram, which is the elephant in the room.
    Mr. Chairman, exactly 6 months after the administration 
announced the FTO designation of Boko Haram before this 
subcommittee, Boko Haram abducted 276 girls from a school in 
Chibok. The world took notice, but so also did al-Qaeda, who 
condemned it. And so also did ISIS, who emulated it and started 
abducting Yazidi and Christian women in Iraq. Eleven months 
after that, ISIS and Boko Haram established an alliance.
    Mr. Chairman, in June 2014 you visited Nigeria and at that 
time were informed of over 1,000 Christians stranded on Gwoza 
Mountain, facing starvation and snakebites. By July, we saw on 
the news in the U.S. helicopters dropping supplies to the 
starving Iraqis besieged on the mountaintops, but we never saw 
the same for those in Nigeria.
    Mr. Chairman, a few weeks ago I met a survivor from that 
mountain who just came down in April when Boko Haram attacked 
them there on the mountaintop. Only about 300 of them are left. 
Like the Chibok girls, these people were cut off from our 
civilization by the terrorists for 2 whole years while the 
world debated what to do. This was the situation before the 
ISIS alliance and the spread of attacks to Niger, Cameroon, and 
Chad.
    Now, global perception of Boko Haram is determined by the 
watershed date of April 14, 2014. I call it BC, before Chibok, 
and AC, after Chibok, for illustrative purposes. The worst 
attack on the United Nations are caught in Abuja in the year 
2011 BC, before Chibok, but the U.N. did not impose sanctions 
on Boko Haram until 2014 AC. So it was the Chibok abductions 
that actually forced them to impose sanctions on Boko Haram, 
not the fact that Boko Haram had bombed the United Nations 
building several years earlier. This is how significant Chibok 
is in the annals of Boko Haram.
    With that said, I want to use that as a small case study to 
show how U.S. cooperation, or lack thereof, is happening.
    Mr. Chairman, you will recall that at a hearing of this 
subcommittee in June 2014 you expressed shock that you were the 
first to interview an escaped Chibok schoolgirl 2 months after 
the abduction in spite of the reports of global partners 
searching for the girls.
    Well, 4 months after your statements, in other words 6 
months A.C., after Chibok, U.S. operatives reached out to 
interview the girls, 6 whole months later, 4 months after you 
mentioned it in the subcommittee hearing. They claim they did 
not have access to the girls in Nigeria.
    In 2015, 1 year later, again 1.6 years after Chibok, 
Nigerian operatives requested the names of the escaped Chibok 
girls in the U.S. From this experience, one is not enthused by 
the level of cooperation between the U.S. and Nigeria in 
searching for the missing girls. Rather than intelligence 
fusion, this seems to me like intelligence confusion.
    Now, the one quick update I would give with regard to what 
Boko Haram is doing is what was mentioned earlier by Ranking 
Member Bass, that these young girls are now being used as human 
bombs, not suicide bombers, and this is considerably the worst 
thing that is happening on the planet--the very notion that 
someone would abduct your daughter, strap her with bombs, and 
use her to blow up other people's daughters. Boko Haram has 
deployed over 100 girls since June 2014.
    The second threat, which I call the new elephant in the 
room, is the Fulani herdsmen who perpetrated a massacre in 
Agatu, Benue State, killing hundreds in February and March, and 
also massacred a community in Enugu State this month.
    Fulani herdsmen have accounted for over 6,000 deaths in 5 
years, equivalent to those killed by Boko Haram last year. They 
have been described as the fourth-deadliest terrorist group in 
the world. But I do not think they are terrorists in the 
traditional sense. They are historically jihadists. Their modus 
is more local jihad than global jihad, unlike Boko Haram, but 
they are more brutal and have attacked more states in Nigeria 
than Boko Haram.
    An alliance between them is suspected because in 2012 Boko 
Haram actually claimed responsibility for a herdsmen attack in 
which a Nigerian senator was skilled. This is public 
information, Boko Haram issued a statement claiming. So there 
is a strong likelihood that there is a linkage. An alliance 
between them could be most deadly because of their ability to 
operate freely across west Africa.
    Nigerians are gravely alarmed at these recent attacks, 
especially as Fulani spokesmen have claimed they have special 
protection under the incumbent President, who is also Fulani.
    In southeast Nigeria, many Igbos who have fled the north 
because of Boko Haram's targeted attacks are upset that the 
Fulani herdsmen are attacking them on their own soil, 
especially after the south conceded the Presidency to the north 
in the last election.
    The Fulani herdsmen are more medieval than Boko Haram and 
there is a pervasive sense in Nigeria that they are now a 
serious national security concern. The U.S. continues to view 
the herdsmen attacks as simply a product of climate change and 
farmer-herder competition for land, notwithstanding that people 
are killed in their homes by intruders. The U.S. Commission for 
International Religious Freedom has consistently raised an 
alarm on this for several years.
    The third threat is the Iranian-backed Shiites led by 
Sheikh al-Zakzaky and they have been a dreadful nuisance to 
communities in northwest Nigeria. But they are not terrorists. 
The reported massacre of over 300 Shiites by the Nigerian Army 
6 months ago is unfortunate as it has the potential to create 
yet another insurgent group in the country, but this time one 
with greater capacity and with full support of a known state-
sponsor of terror. A Boko Haram alliance would be catastrophic, 
but it is intriguing that Boko Haram allied with an Iraqi group 
first before another Nigerian group.
    I should point out that Nigeria confiscated 13 container 
loads of arms sent from Iran to Nigeria. It is debatable 
whether the arms were meant for Boko Haram or for the Shiites.
    Nigeria has detained Sheikh al-Zakzaky for months. The U.S. 
has not pressed these human rights violations as strongly as it 
did the deaths of Boko Haram suspects killed during a jailbreak 
attack on a military barracks under the former President even 
though this is how Boko Haram mutated from an extremist sect to 
a terrorist group.
    I will round up with recommendations. I believe U.S. policy 
formulation on northern Nigeria should be informed by the 
terrorist, jihadi universe. As Bishop Matthew Kukah stated 
recently, the Government of America must ``take full 
responsibility for how it shapes leadership around the world,'' 
arguing that policies and conflicts around the world bear 
consequences for the people of northern Nigeria. We are 
suffering the ``collateral damage,'' he lamented.
    There have been more protests in northern Nigeria against 
the U.S. and Israel than there have been against the Nigerian 
Government over the years.
    That the world today is facing a clash of civilizations is 
undebatable. Standing by Nigeria as a worthy ally to end the 
insurgency is critical to regional security. Nigeria has 
historically been a receiver, not an exporter of refugees, and 
this crisis has reduced its capacity as a regional power and a 
global player in international peacekeeping, as you referenced 
earlier.
    Secondly, this Congress has a key to address the 
humanitarian crisis before it deteriorates further by passing a 
bill to utilize assets forfeited from Nigeria in a victim 
compensation fund. Funds looted abroad by a former NSA were 
repatriated to Nigeria only to be relooted again, allegedly, by 
the last NSA.
    H.R. 528 would help victims like Habila Adamu, who 
testified before this subcommittee but remains unemployed and 
has lost family members since he survived kill shots to his 
head. The entire assault on Borno, which has been mostly 
neglected in relief efforts, could also benefit from that kind 
of fund.
    It appears that repentant terrorists appear to be getting 
more personal attention than the victims, and this in itself is 
a travesty. The U.S. Government should press Nigeria to stave 
the relentless bloodshed occasioned by the Fulani herdsmen. The 
U.N. should categorize Nigeria as a level three humanitarian 
crisis and the U.S. and this Congress should recognize Boko 
Haram's atrocities as genocide.
    I have several other recommendations which you can see on 
page 16 of my written testimony, as well as page 18 of my 
written testimony, and I ask that you kindly enter this in the 
record.
    [The prepared statement of Mr. Ogebe follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
      
                              ----------                              

    Mr. Smith. Without objection, so ordered.
    And any extraneous material any of you would like will be 
made a part of the record.
    Mr. Ogebe. I thank you, sir.
    Mr. Smith. Ms. Sa'a. The floor is yours.

   STATEMENT OF ``SA'A'', CHIBOK SCHOOLGIRL, EDUCATION MUST 
                      CONTINUE INITIATIVE

    Sa'a. Thank you, Mr. Chairman.
    Two years ago the terrorist group Boko Haram attacked my 
school at Chibok when we were all sleeping at night. They were 
shooting guns and yelling ``Allahu Akbar.'' They asked, where 
are the boys? They also asked where the food is. They made us 
move from where we were staying to the class area. They started 
burning everything, our clothes, our books, our classrooms, and 
everything in our school. Then they made us walk far away from 
the school and forced us to enter a truck. If we did not they 
are going to shoot all of us.
    We were all scared so we entered the truck. When we were 
all riding through the forest, I had this feeling that I should 
try and escape because I don't know where I am going and 
neither do my parents. We didn't know. I said to one of my 
friends that I am going to jump out of the truck and escape. 
She said, ``Okay,'' she is going to jump out with me.
    I jumped out first and she jumped out after me. We hid in 
the forest while they passed. It was very dark. We didn't know 
where we are. My friend hurt both of her legs from jumping out 
of the truck. She couldn't walk. She cried. She said to me that 
I should go home and let her die in the forest. I said, ``No, 
if we are going to die, we are going to die together. I am not 
going to leave you here.''
    I decided to go and look for help. I was going not far from 
where we slept. I found a Fulani man, a shepherd. I asked him 
for help but, he said, ``No.'' So I tried and convince him. 
Then he did help us. He put my friend on his bicycle and took 
us to Chibok, and that is how we got home.
    After we escaped, Mr. Emmanuel Ogebe with the Justice for 
Jos Project, with Congressman Chairman Chris Smith, came to 
Nigeria to find out what happened. They met my friend who 
escaped with me and heard our story.
    Mr. Emmanuel Ogebe found a school for her to study in the 
U.S. She told them if they giving her a scholarship to come to 
study, she would like me to come too because I was the one who 
helped her. My friend told me about the opportunity, but I told 
her that I am not coming to school because of what happened.
    That was the second attack that both of us had been 
through. When Boko Haram kidnapped us they asked, ``Why are you 
at school?'' They said, we should all be married. They said 
that we should not go to school again or they will find us. I 
felt like if I go to school again they will kidnap us wherever 
we are.
    My brothers and friends encouraged me that I should not let 
Boko Haram stop me from getting an education, I should come and 
study. I am glad I listened to them and I'm here today. I 
started college in January under a project by the Education 
Must Continue Initiative, www.emcinitiative.org. It is run by 
the victims of the insurgency for victims of the insurgency 
which has helped me and about 3,000 other IDP kids to go to 
school.
    I have learned a lot since I came to the U.S. I went to the 
National Archives and I saw the U.S. Constitution and the 
Declaration of Independence. I even saw a version of the Magna 
Carta. I learned that the people who wrote those documents have 
faced hard times through the years, but they didn't give up, 
and hope and freedom won.
    When I heard Patrick Henry said, ``Give me liberty or give 
me death,'' I realized that was exactly how I felt when I had 
to decide about jumping out of the truck to escape from Boko 
Haram.
    Here in the U.S., I stood under the Capitol dome and looked 
up at the statute on the top called Armed Freedom and realized 
that freedom has to have strength protecting it.
    I want to study medicine. I want to help Nigeria, but will 
it be safe? I have twice escaped Boko Haram attacks on my 
schools, but many have not. Many live in fear every day. Thanks 
to God, I am safely here in the U.S. and doing well in my 
studies, but I am worried about my family in Nigeria. People 
ask me if it will be safe for me to return to Nigeria. I ask: 
Is it safe for everyone in the northern Nigeria? I lost my dad 
months ago. It wasn't the terrorism but the effects of the 
terrorism.
    I urge everyone who hears or reads this statement who has 
any power to help Nigeria to please help and also help some of 
my Chibok classmates who didn't get the opportunity that I have 
today to be in school safely. I want them to be able to go to 
school too, especially my Chibok classmates and my friend Hauwa 
John, who has been denied a visa at the American Embassy in 
Nigeria three times.
    When I saw the video of some of my missing classmates and 
recognized some of their faces, I cried with tears of joy, 
thanking God for their lives. Seeing them has given me courage 
to tell the world that we should not lose hope.
    I have had dreams. Some of the dreams were scary, but now 
my dreams are good. I have a dream of a safe Nigeria, a Nigeria 
where girls can go to school without fear of being kidnapped; a 
Nigeria where girls like me are not made into suicide bombers 
and little boys are not routinely stolen and turned into 
terrorists; a Nigeria where, if even the worst happens and 
children were stolen, every effort is made for their swift 
rescue, and those who can help will help, and those who can 
help will speak for those who cannot speak for themselves. I 
dream and pray for freedom, safety, and peace to win in 
Nigeria. Thank you.
    [The prepared statement of Sa'a follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                    ----------                              

    Mr. Smith. Thank you so very much for your powerful words 
and powerful inspiration and your powerful witness to faith, 
character, and courage. It truly astonishing. Thank you so 
much.
    Dr. Fomunyoh.

STATEMENT OF CHRISTOPHER FOMUNYOH, PH.D., SENIOR ASSOCIATE AND 
    REGIONAL DIRECTOR FOR CENTRAL AND WEST AFRICA, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Fomunyoh. Thank you, Chairman Smith and Ranking Member 
Ms. Bass. Mr. Chairman and members of the subcommittee, on 
behalf of the National Democratic Institute, NDI, I appreciate 
this opportunity to discuss current security challenges and 
threats in northern Nigeria. This is a summary of my written 
testimony, and I request that it be made part of the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Fomunyoh. Since Nigeria's 1999 transition from military 
to civilian rule, NDI has worked closely with Nigerian 
legislators, political party leaders, and civil society 
activists to support democratic institutions and practices in 
the country. With funding from the U.S. Agency for 
International Development (USAID), the U.S. Department of 
State, the National Endowment for Democracy (NED), the Ford 
Foundation, and the UK's Department for International 
Development (DFID), NDI's work has helped to support Nigerian 
efforts to advance democratic governance and electoral 
processes that reflect the will of the people.
    In May 2015, Nigeria's newly elected President, President 
Muhammadu Buhari took office following the elections that saw 
the country's first peaceful transfer of power from one 
political party to another. President Buhari and his government 
inherited several major economic and security challenges, 
particularly in the country's northern states, where 
approximately 40,000 people have been killed by violence 
between 2011 and 2015. The region has experienced political and 
economic marginalization, unbalanced development, corruption, 
and poor delivery of public services. Northeast Nigeria has 
also borne the brunt of the ongoing surge of violent extremism.
    Boko Haram, a group that promotes a fundamentalist 
religious ideology, has cost nearly 15,000 deaths since 2009. 
Moreover, more than 2.2 million Nigerians are internally 
displaced with approximately 200,000 others now refugees in 
neighboring countries.
    Also, the vast majority of approximately 5.4 million people 
that need emergency food assistance across the Lake Chad Basin 
region are Nigerian, as Boko Haram-related violence has 
divested infrastructure and disrupted economic activity. Human 
Rights Watch estimates that over 2,000 schools in northern 
Nigeria and the Lake Chad Basin countries of Cameroon, Chad, 
and Niger have closed or been destroyed by the Boko Haram 
insurgency.
    In March 2015, Boko Haram pledged allegiance to the Islamic 
State of Iraq and Syria, ISIS, declaring itself the Islamic 
State's West Africa Province. Besides the Boko Haram crisis in 
the northeast, intercommunal conflicts between agrarian and 
pastoralist communities have cost 6,000 deaths since 2011, 
about 600 of which have occurred since the beginning of this 
year. A 2015 report by Mercy Corps, a U.S.-based organization, 
found that violence has contributed to negative economic growth 
and that Nigeria could gain approximately $13.7 billion a year 
in macroeconomic activity in the four most affected states 
because of the agrarian-pastoralist conflict. The communities 
most affected are northern and central Nigeria and the Middle 
Belt, stretching from Kwara and Niger States in the west to 
Adamawa State in the east. Recently, intercommunal skirmishes 
have occurred in the country's southeast zone, underscoring the 
national ramifications of simmering tensions and violence.
    In my full statement, I trace the origins and consequences 
of the conflicts and offer a series of recommendations for 
consideration by both Nigeria and the international community, 
among which they need to expedite the creation of a 
comprehensive development agency for northeast Nigeria that 
could prioritize long-term economic development, review the 
legal framework on indigenization and access to land, introduce 
stronger citizen-centered approaches to state and local 
governments, invest in further professionalization of security 
services, support rehabilitation and resiliency of impacted 
communities and individuals, promote women and youth as agents 
of peace, and enhance educational opportunities, particularly 
for girls.
    Despite its challenges, Nigeria has in the past proven its 
resilience. By using its public resources wisely and improving 
governance at the local, state, and Federal levels, the leaders 
of Africa's largest economy and most populous country can still 
deliver on the promise of democracy and the dividends that many 
Nigerians expect of their government, especially in the 
northern regions of the country. More inclusive and responsive 
governance, especially at the local level, would help sustain 
for the long-term the military gains against Boko Haram and 
ongoing efforts to tackle terrorism and skirmishes that impact 
negatively on citizens' well-being and undermine national 
cohesion.
    Since the peaceful and credible Nigerian elections of March 
2015, the international community has more forcefully expressed 
its opposition of Nigerian efforts to tackle forthrightly 
corruption, insecurity, and economic development. The 
international community should redouble its support through 
greater and more robust partnerships with Nigerians at the 
subnational levels, directly in the northern states and local 
government areas most impacted by terrorist-related and/or 
criminal violence. Direct assistance to locally based 
institutions and social citizen-led initiatives would have 
greater impact and likelihood to be sustainable over the long 
term. In addition to security and other forms of material 
assistance, the international community should prioritize human 
development expertise that can address the trauma that the 
violence of the last few years has inflicted on youth, women, 
girls, and other underprivileged segments of society in 
northern Nigeria.
    Thank you, Mr. Chairman and members of the committee.
    [The prepared statement of Mr. Fomunyoh follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                    ----------                              

    Mr. Smith. Doctor, thank you so very much for your 
testimony and your insights and recommendations.
    We expect a series of votes at 3:45, so what I thought is 
that each of us who have questions, that we ask our questions, 
and if there is more time and if some can stay after the votes, 
we could reconvene the hearing if that would be acceptable to 
you. But I have got to be aware of your time as well.
    So I will just throw out a few couple of questions and 
yield to my good friend Ms. Bass. And take the questions you 
would like, and as best you can, please answer them.
    On the IDPs, doctor, you mentioned 2.2 million IDPs, 
200,000 refugees. Every trip I make there, every conversation 
with the administration is, are we doing enough to help them? 
When Mr. Ogebe, took us to an IDP camp--it was really a motel--
in Jos, where we met this unbelievably tremendous man who had 
been shot by Boko Haram, would not renounce his faith in 
Christ, and then survived. He was in the IDP camp and told his 
story. And then we brought him over here for testimony. The 
question is, are we doing enough for this group of people?
    Secondly, on the military, when we kept hearing how the 
Leahy law was the obstacle, we convened a hearing of this 
subcommittee, and the administration said that at least half or 
more of all of the military in Nigeria could be properly vetted 
pursuant to the Leahy amendment and get the specialized 
training that they need. Are you agreeable? Do you believe we 
are doing enough to train vetted, non-human-rights-abusers in 
the best military tactics, as well as with the kind of weaponry 
and capabilities, like night-vision goggles, that they would 
need?
    And, finally, the special envoy idea of Mr. Wolf, you 
championed that for the Middle East, which is now up and 
running. You did it for Darfur, and that took years, as we all 
recall, but it made a difference. I am wondering, that is 
something we might look to do a bill on, or maybe we could just 
admonish the administration to create it administratively, 
which they certainly have the ability to do.
    And, Mr. Ogebe, you mentioned the Chibok schoolgirl, as did 
Sa'a, who can't get a visa. That is outrageous. We need to 
follow up on that and perhaps others who are also being 
disallowed entry into the United States.
    Ms. Bass.
    Ms. Bass. Well, first of all, thank you all for your 
testimony.
    And I agree with my colleague here: We would like to do 
everything that we can in terms of a visa for this one person 
but also any other individuals.
    And I just wonder, Sa'a, to the extent that you are in 
contact, one, how is your family doing there? Are you in 
contact with any of the other girls who escaped? And maybe you 
can answer that.
    Mr. Smith. Any other questions that you have?
    Ms. Bass. No, and I will yield to my colleague here, Ms. 
Wilson.
    Ms. Wilson. Yes, that is a good question. That is a 
question that I would like to hear the answer also.
    Also, about the people who are displaced from their homes, 
is anything being done to find housing for them? Also, I don't 
know if anyone can answer the question, maybe the chairman of 
the subcommittee, about the funds, the confiscated funds from 
Nigeria, that can be used to help some of these internally 
displaced persons. Maybe Chairman Smith would want to give us 
some insight on what we are doing moving toward that.
    Mr. Smith. I don't think we are doing enough, number one.
    Ms. Wilson. We are not doing enough.
    Mr. Smith. At previous hearings, I asked that there be 
established a victims' compensation fund.
    Ms. Wilson. Yes.
    Mr. Smith. And that could be done by the government, their 
government as well as ours working in tandem, and the prototype 
for it would be what we did for the 9/11 victims. And that 
victims' compensation fund so positively impacted many of my 
own constituents who lost loved ones and jobs, obviously, 
through 9/11. But not enough is being done.
    Ms. Wilson. Not enough. And it appears as if some genocide 
has taken place. And it seems like there is going to be a whole 
generation of children who are not being educated because the 
schools are being destroyed. There are 3,000 schools that Boko 
Haram has destroyed. And I am just concerned about, it is 
almost as if there is a fence of apartheid that has been put 
around, erected around Nigeria and the other neighboring 
countries, and it is almost as if the world is saying: Leave 
them there. It is Africans killing Africans, so why should we 
bother?
    And then when the New York Times and the Washington Post 
puts in the headline that Boko Haram is the most deadly 
terrorist organization in the world and they have killed more 
people than ISIS or any other terrorist organization, and then 
it just fades away. This is mind-boggling to me. And I wonder 
in my heart and soul what, Chairman Smith and the subcommittee, 
what should we be doing? What can we do as a country? We can't 
just pretend that it is not happening and that this fence of 
apartheid is there. It takes us back many years when we had to 
go through this with South Africa. So I am just wondering: Do 
we need to start a revolution? Do we need to march to the White 
House? Do we need to march to Nigeria? What is it do you think 
we can do, Sheila, all of us, as a Congress? Because everyone 
is concerned. It is not just us. It is so many people. And we 
realize that when we do the red Wednesdays, and when we have 
the press conference and we have the hearings, Mr. Wolf, and 
all of you should see us. So it is still the same. So that is 
why I came today and that is my question.
    Mr. Smith. Well, I will yield to my good friend and 
colleague, Mr. Donovan, in a second, but it has been my 
observation over 36 years as a Member of Congress that this is 
what we do everywhere. When the Balkans were under siege by 
Serbia, we fiddled. We said: It is not our problem; it is 
Europe's problem. They said: It is not our problem. And 
hundreds of thousands of people died.
    On the Armenians, obviously, they said that 100 years ago, 
almost to the year, during the Armenian genocide when everybody 
looked askance and they still don't recognize it in many parts 
of the world, including in the United States Government.
    I think it is gross indifference. There might be a tinge of 
racism in there. I don't know that, but it seems every 
continent has it, and we look the other way. That doesn't mean 
that we need military intervention 24/7----
    Ms. Wilson. Right.
    Mr. Smith [continuing]. But the Nigerians have a very 
capable military. Their soldiers are outstanding. I mentioned 
that in my opening that they are peacekeepers. They just need a 
special skill set that we learned over time that needs to be 
imparted to them. And we have been reluctant, citing the Leahy 
amendment, falsely, I believe, as the impediment.
    So but I think what you have done, what Karen Bass and all 
of us have tried to do is just keep it front and center.
    We had a hearing yesterday on the crackdown in Vietnam, 
which is profound. And I had the wife of a dissident that I met 
in 2005 who got arrested again and is probably being tortured. 
The President is going there. We begged the President to ask 
that Nguyen Van Dai be released and the other 180 or so 
political prisoners in Vietnam. We just need to make these 
priorities. And so I take your point and thank you for 
keeping----
    Ms. Wilson. Thank you.
    Mr. Smith [continuing]. The girls front and center 24/7.
    Mr. Donovan.
    Mr. Donovan. Thank you, Chairman.
    I just wanted to know if anyone knew an update on our 
efforts to find the remaining girls and if you could tell us 
what we are doing in those efforts.
    And, also, I am on the Committee on Homeland Security, so 
one of the things that we do when we talk about terrorist 
groups is try to measure the number of members of the group. Do 
we have any idea of the size of Boko Haram, their leadership, 
and the territories in which their strongholds are, where their 
leadership works out of?
    So those are most of my questions, Mr. Chairman.
    Mr. Smith. Ms. Jackson Lee.
    Ms. Jackson Lee. I am going to thank, Mr. Chairman, you and 
your ranking member for the courtesies of extending to those of 
us who have joined and have been joined at the hip on this 
issue of Boko Haram. And I think it has been 2 years that 
Congresswoman Wilson and I have been joined at the hip going 
from one ocean to the next on this issue. And I thank you so 
very much for what you are doing.
    Mr. Chairman, if I might, I have H.R. 528, which I would 
like to bring to the committee's attention, and whether we 
could have a hearing. It is Victims of Terror Protection Act, 
and it deals with the Abacha loot, which the DOJ has, and I, 
frankly, believe they can begin to utilize that money ASAP. 
Maybe a hearing would be appropriate, and I would like to share 
that with you. I think you reviewed it and supported it, and so 
I would like to do that.
    And one of my questions is going to be, how desperately 
this relief is needed to have--and I am sure with the wonderful 
witnesses that we have had from our Chibok girl, how should I 
say it, leader, champion for the other girls, I know she has 
told the story, but I would like to hear that again or hear it 
maybe for the first time, because when we were in Nigeria 2 
years ago and when I heard you being there recently, families 
were still in pain. They are still in limbo. Some are just 
surviving with their young girls missing, and maybe they have 
lost. Certainly, Boko Haram have killed--and I want to make 
this point, and maybe it was already made--Muslims, Christians, 
and others. They have killed and burned mosques and churches 
and homes and schools, and they also have recruited. So if I 
could, under this relief fund, find out how desperately it is 
in need.
    And then a second question, if I could hear about the 
recruitment. What could we do to stem the tide of recruitment 
of young boys alongside--the overall question is what we can do 
to bring the girls back, but I know there are broken families 
that are there. If we could do that.
    And then to Congressman Wolf, thank you so very much. I 
would like to join on the question of legislation dealing with 
the special envoy. We have dealt with envoys in South Sudan, 
but we have had them in other areas as well as in the Lake Chad 
area. You, Mr.--I want to still call you Mr. Chairman--Mr. 
Wolf, knew when the Africa Command was done and the 
appropriations that were done in the Africa Command may be in 
combination of a discussion that you had that I would like to 
ask about how much value you think an envoy would bring, but 
besides the Leahy amendment, just what we might do. We have an 
African Command. When I was there, they were eager. They were 
doing technical assistance. Maybe you saw them doing the same 
thing. And that was technical assistance because they were 
eager to help bring the girls back, and this was in the early 
weeks and days that Congresswoman Wilson and Congresswoman 
Frankel and I were there and Congressman Chabot, I believe, was 
there. They were eager. They were in meetings. They were 
saying: We are almost there.
    And so maybe you can help us understand that. This is not 
the Committee on Armed Services, but you can have us understand 
what that might do if we could ramp that team up beyond where 
they are today. I understand they are advising, but the growth 
around Chad, Niger, and other areas, I would be interested in 
hearing back.
    I yield back, Mr. Chairman, thank you.
    Mr. Wolf. I will be really brief. One, the IDPs are not 
getting assistance, and the camps are some of the worst camps 
that I have seen.
    Secondly, on the training of the military and police, it is 
training both there is an awareness of it but not the 
compliance, and so there needs to be in-depth. We were in 
villages. They said the military came in and fired; the police 
came in and fired. Did they capture the uniforms? I don't know. 
But awareness, but also compliance.
    Thirdly, on the special envoy, when Danforth spoke, it was 
all together. In those days, you had Kenya involved. You had 
Uganda involved. You had Eritrea briefly involved, aiding John 
Garang, and you had Ethiopia involved. One person, and it was a 
one-stop office, and Andrew Natsios, so you had a place to go. 
The President had one person to talk to. This is not meant as 
criticism of the people that are working on this. But that 
process, so to have a special envoy, one stop. Also, for 
counseling of the girls, to say we are concerned about them, 
but are you giving counseling when these people--they are 
victims twice: When they are captured and when they are 
released. Yeah, so there needs to be a one stop, and then 
everyone knows. The press knows that in one office, that one 
person speaks. So I think a special envoy, the right person, 
but again, no criticism, this is not meant to say that is 
wrong. It could really be to elevate that, could really be--
otherwise, what are you going to do? What?
    And then you have a military person, and they can speak to 
the military. Our military are good. I believe, how did the 
helicopters come in without our people not seeing it? How did 
boats come across the river without our people not seeing it?
    So, yes, there is more, but you have to--it is not covered 
by the media the way it should. And yes, this is a very 
important issue, but more for the IDPs, more training and a 
special envoy, I think the right person could make all of the 
difference.
    And, lastly, the families, the families, we did not talk 
to. We talked to the counselors who counselled the families. I 
think she can better say. But the counselors said the families 
were hopeful. They saw all of this hashtag. Now, they are 
disappointed.
    Ms. Jackson Lee. Despair is settling in.
    Mr. Ogebe. Yes, sir. With regard to the refugees, in 
Cameroon, the camp that had 2,000 people now has 60,000 people. 
And so 500 a week have been coming in, and there are still 
people outside waiting to get in. But for my current report, 
what I learned is they now have food. When there were 2,000, 
there was no food in the camp, but now, the U.N. is able to 
provide them. We understand some of that is through U.S. 
assistance.
    Now, that said, the IDP situation in Nigeria is very bad. 
We have the whole southern border. There are not more than two 
IDP counselors in the entire half of the state. So when we had 
the start of the school for IDP kids, 2,000 kids enrolled in 1 
week. That is how bad the situation is. The kids have been 
there 4 years; no school. They trek miles just to come to that 
one school. So there is much to be done.
    Mr. Smith. Is it the money?
    Mr. Ogebe. Well, sir, we have been trying to find out why 
the southern half of that state is not being taken care of. And 
it is part of, we suspect, the religious discrimination that 
systematically occurs in that state, because that half is not 
from the right religion. So we have related this issue with the 
Government of Nigeria, and we don't know what the response will 
be.
    I thought you had a question.
    Sa'a. You asked if I am in touch with my family. I am 
always in touch with my family and some of my classmates that 
escaped too. Some of them are in school in Nigeria, while some 
of them got married. Some of them got pregnant, which I think 
because they were scared to go to school because it is not safe 
there in Nigeria. So they don't want to go to school. And so 
some of them who think like they want to go to school, they 
were in school in Nigeria, while some of them got married. 
Thank you.
    Ms. Bass. Thank you.
    Mr. Fomunyoh. Mr. Chairman, on your question on the IDPs, I 
will agree this is a very serious issue. Because of the 2.2 
million internally displaced persons, only 8 percent are in 
camps and under conditions that could use a lot of help. And so 
we have the other 92 percent of internally displaced persons 
that are spread in communities, in families, and nobody seems 
to be tracking them. And so that is the first issue with regard 
to IDPs. There is also a question of identifying who is in 
those camps and the concerns that some of the former elements 
of Boko Haram, especially now that they are on the run, could 
infiltrate the camps and use the camps as staging ground for 
other atrocities. There have been reports of people arrested in 
the refugee camp that a number of them fled to in Cameroon who 
were identified with Boko Haram.
    On the question of the military, of course, I couldn't be 
competent to talk about that, but my understanding is that 
there are currently two battalions that are being trained with 
technical assistance from the U.S. and that human rights has 
been incorporated into the curriculum. But, of course, I am 
sure other people are more qualified to discuss that issue with 
you, Mr. Chairman.
    The question about the generational handicap. That is 
really the concern that many of us have with regards to 
Nigeria, because we now are coming up to a decade since Boko 
Haram began these atrocities. And so we have a decade of young 
people who have not been able to go to school. I did mention 
the fact that 2,000 schools have been closed or destroyed in 
the course of this conflict. And so you have a whole generation 
that is coming of age that has not had basic secondary 
education. And without that, that is going to short access for 
them in terms of higher education. If you haven't had secondary 
education, you can't go to the university, which therefore 
means that they are not going to be able to have gainful 
employment. They are not going to be able to have good jobs. 
And so if you fast forward in the next 10 years, this vast 
majority of the segment of young people would be without access 
to gainful employment. And so, in some ways, you almost would 
think that, even if Boko Haram is defeated militarily, if all 
the concrete steps are not taken to provide avenues and 
opportunities for this generation of young people who have been 
starved of the possibility of gaining education, then we are 
probably just resolving one issue today and the problem will 
resurface in another 5 or 10 years.
    The last thing I would want to talk about is the idea of a 
special envoy. Before coming to the hearings, I hadn't really 
thought through the issue. But I want to draw some inspiration 
in terms of the military gains that have been made against Boko 
Haram in recent months. The fact that the multinational force 
being stood up, has helped tackle this issue with the 
involvement of other countries in the subregion. And if that 
has worked from a military perspective, I think the 
rehabilitation and reconstruction of northeastern Nigeria would 
require a multinational approach and sometimes having a one-
stop shop and someone who can centralize all of these issues, 
because there will be people coming from Chad, from Cameroon, 
from Niger with similar issues, would facilitate the U.S.'s 
ability to be able to lend some weight in the reconstruction 
and rehabilitation of northeastern Nigeria.
    Mr. Smith. Thank you.
    We are almost out of time, but, Congressman Wolf and both 
of you, thank you for the encouragement. We will put together a 
draft bill on a special envoy and begin the process. And, 
again, the administration can do this without any bill 
whatsoever. But there might be pushback. Sometimes there is on 
something like this. So thank you for the idea. And I think it 
will help provide a focus that may be lacking to some degree, 
particularly on the humanitarian side with IDPs. And as both of 
you have said, the services and help just simply are not there.
    You know, Buhari, when he got elected, there were high 
expectations that things would change. There is a multinational 
force. There is a taking-it-to-them mentality that did not 
exist previously. And I am wondering if those expectations are 
ebbing, waning, or is there still a significant hope that Boko 
Haram can be defeated and, hopefully, God willing, the Chibok 
girls and other girls that have been abducted so cruelly, 
return to their families?
    And can I just add, because we only have--and anything else 
my distinguished colleagues might want to say--the use of the 
churches and mosques in bringing the women back, are they being 
employed in a way that is effective? Because there was a great 
deal of love in those churches and what I took away from our 
trip to Jos is how well the imam and Archbishop Kaigama worked 
together, Muslims, Catholics, other Christians working across 
those lines. It was extraordinary.
    Mr. Ogebe. Yes, sir. Well, I think my response to that is 
that we certainly need to see more humanitarian responses that 
will stave off a generational conflict because that is what we 
see brewing, as the gentleman alluded to.
    But let me just say for the record that Boko Haram has 
attacked citizens of different countries. They have killed 
citizens of over 15 countries, and they have attacked citizens 
of the U.S. as well. But to this date, the State Department has 
not admitted that Boko Haram has done so. And that is part of 
why we feel there isn't sufficient transparency and political 
will to push this issue as far as it needs to go.
    Mr. Smith. Thank you so much.
    We will act on your recommendations. They have been 
excellent and incisive.
    Ms. Jackson Lee. Just very quickly, for another time, the 
recruitment issue is very important. Mr. Chairman, I would like 
to--I am not on the subcommittee, but I would like to work with 
you on the envoy, if I may. My staff will be in touch. Thank 
you.
    Mr. Smith. Thank you. The hearing is adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
